USCA11 Case: 20-14219

Date Filed: 02/22/2021

Page: 2 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-14219-F

DARRELL DEMETRIUS CROSS,
Plaintiff - Appellant,
versus
KECIA DAVIDSON,
Dodge County Jail Detention Officer,
COUNSELOR GORDON,
CORRECTIONS OFFICER BURKE,
VIRGINIA SMITH,
CPT. SID ANDREWS, et al.,
Defendants - Appellees.

Appeal from the United States District Court
for the Southern District of Georgia
ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Darrell Demetrius Cross has failed to pay the filing
and docketing fees to the district court within the time fixed by the rules; Motion entitled:
“Emergency Motion for Venue" is MOOT due to the clerk's order being entered; Motion for
leave to proceed based on imminent danger is MOOT due to the clerk's order being entered,
effective February 22, 2021.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Dionne S. Young, F, Deputy Clerk
FOR THE COURT - BY DIRECTION

Case 3:20-cv-00058-DHB-BKE Document 11 Filed 10/29/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT

)

FOR THE SOUTHERN DISTRICT OF GEORGIA

Plaintiff,
v.

)
)
)
)
)
)
)
)
)

j

2020 00129 P MM

DUBLIN DIVISION
DARRELL D. CROSS,

■/n

U.S. DISTRICT COURT
AUGUSTA CSV.

CV 320-058

KECIA DAVIDSON; COUNSELOR
GORDON; CORRECTIONS OFFICER
BURKE; VIRGINIA SMITH; CPT. SID
ANDREWS; and SERGEANT LOCKETTE, )
Defendants.

)
)

ORDER
After a careful, cle novo review of the file, the Court concurs with the Magistrate
Judge’s Report and Recommendation, to which no objections have been filed. Accordingly,
the Court ADOPTS the Report and Recommendation of the Magistrate Judge as its opinion,
DENIES Plaintiffs request to proceed in forma pauperis, (doc. no. 2), DENIES AS MOOT
Plaintiffs motion for appointment of counsel, (doc. no. 3), and motion to stay, (doc. no. 8),
and DISMISSES this action without prejudice. If Plaintiff wishes to proceed with the claims
raised in this lawsuit, he must initiate a new lawsuit, which would require submission of a
new complaint. See Dupree v. Palmer. 284 F.3d 123;
SO ORDERED this

(11 th Cir. 2002) (per curiam).
MSI. , 2020. at Augusta, Georgia.

%

UNITED STA,JES DISTRICT JUDGE

Case 3:20-cv-00058-DHB-BKE Document 9 Filed 10/02/20 Page 1 of 6
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
DARRELL D. CROSS,
Plaintiff,
v.

)
)
)
)
)
)
)
)
)

CV 320-058

KECIA DAVIDSON; COUNSELOR
GORDON; CORRECTIONS OFFICER
BURKE; VIRGINIA SMITH; CPT. SID
ANDREWS; and SERGEANT LOCKETTE, )
Defendants.

)
)

MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION

Plaintiff, an inmate at Dodge County Jail in Eastman, Georgia, seeks to proceed in
forma pauperis (“IFP”) in this action filed pursuant to 42 U.S.C. § 1983. (Doc. no. 1.) For
the reasons set forth below, the Court REPORTS and RECOMMENDS Plaintiffs request to
proceed IFP be DENIED, (doc. no. 2), motion for appointment of counsel be DENIED AS
MOOT, (doc. no. 3), motion to stay be DENIED AS MOOT, (doc. no. 8), and this action be
DISMISSED without prejudice.
I.

BACKGROUND
A prisoner attempting to proceed IFP in a civil action in federal court must comply with

the mandates of the Prison Litigation Reform Act (“PLRA”), Pub. L. No. 104-134,
§§ 801-810, 110 Stat. 1321 (1996). 28 U.S.C. § 1915(g) of the PLRA provides:
In no event shall a prisoner bring a civil action or appeal a judgment in a civil
action or proceeding under this section if the prisoner has, on 3 or more prior
occasions, while incarcerated or detained in any facility, brought an action or
appeal in a court of the United States that was dismissed on the grounds that it is

Case 3:20-cv-00058-DHB-BKE Document 9 Filed 10/02/20 Page 2 of 6
frivolous, malicious, or fails to state a claim upon which relief may be granted,
unless the prisoner is under imminent danger of serious physical injury.
“This provision of the PLRA, commonly known as the three strikes provision, requires
frequent filer prisoners to prepay the entire filing fee before federal courts may consider their
lawsuits and appeals.” Rivera v. Allin. 144 F.3d 719, 723 (11th Cir. 1998) (internal citations
omitted), abrogated on other grounds by Jones v. Bock. 549 U.S. 199 (2007). The Eleventh
Circuit has upheld the constitutionality of § 1915(g) because it does not violate an inmate’s
right to access the courts, the doctrine of separation of powers, an inmate’s right to due process
of law, or an inmate’s right to equal protection. Id. at 721-27.
II.

DISCUSSION
A.

Dismissal Is Warranted Because Plaintiff Has Three Strikes Under
§ 1915(g)

A review of Plaintiff s history of filings reveals he has brought at least three cases that
were dismissed as frivolous or for failure to state a claim and count as strikes: (1) Cross v.
GDOC Central Banking Inc, of Atl. Ga. l:19-cv-1382-CAP-LTW (N.D. Ga. Apr. 24, 2019)
(dismissing for failure to state a claim); Cross v. State Bd. of Pardons and Paroles. l:00-cv02010-CAP (N.D. Ga. June 13, 2001) (dismissing for failure to state a claim); Cross v. Santos.
l:01-cv-02779-CAP (N.D. Ga. Jan. 2, 2002) (dismissing for failure to state a claim). Because
Plaintiff has at least three strikes, he cannot proceed IFP unless he can demonstrate he qualifies
for the “imminent danger of serious physical injury” exception to § 1915(g). Mitchell v.
Nobles. 873 F.3d 869, 873 (11th Cir. 2017).
B.

Plaintiff Does Not Qualify for the Imminent Danger Exception

In order to come within the imminent danger exception, a prisoner must be in imminent
danger at the time he files suit in district court, not at the time of the alleged incident that serves
2

Case 3:20-cv-00058-DHB-BKE Document 9 Filed 10/02/20 Page 3 of 6
as the basis for the complaint. Medberrv v. Butler. 185 F.3d 1189. 1193 (11th Cir. 1999). The
majority of Plaintiffs complaint is illegible, however from what the Court can discern,
Plaintiff is requesting a criminal warrant for felony battery and assault be issued for the arrest
of Defendants. (Doc. no. 1, p. 6.) Further, it appears Plaintiff is attempting to bring suit on
behalf of another inmate, Steven Gates, whom Plaintiff alleges was physically abused by
Defendants. (Id. at 6-9, 11.)
Plaintiff may not force prosecutors to bring criminal charges against Defendants. See
Leeke v. Timmerman. 454 U.S. 83, 86-87 (1981) (“a private citizen lacks a judicially
cognizable interest in the prosecution or nonprosecution of another”); Otero v. United States
Att’v Gen.. 832 F.2d 141, 141 (11th Cir. 1987) (same) ('quoting Linda R. S. v. Richard D.. 410
U.S. 614, 619 (1973)); see also Capogrosso v. Supreme Ct. of N.J.. 588 F.3d 180,184 (3d Cir.
2009) (“[Individual citizens do not have a constitutional right to the prosecution of alleged
criminals.”); Sattler v. Johnson. 857 F.2d 224, 227 (4th Cir. 1988) (holding that there is no
constitutional right for a member of the public, as a victim, to have defendants, including state
government officials, criminally prosecuted). Indeed, the decision whether to ultimately
prosecute a criminal case is a matter entirely in the local prosecutor’s discretion. See, e.g..
Bordenkircher v. Haves. 434 U.S. 357, 364 (1978) (“In our system ... the decision whether or
not to prosecute, and what charge to file or bring before a grand jury, generally rests entirely
in [the prosecutor’s] discretion.”).
Plaintiff has pled no facts to show he has suffered any injury, much less that he is in
imminent danger. Therefore, Plaintiff fails to demonstrate he should be excused from paying
the

full

filing

fee

under

the

“imminent

§ 1915(g)’s three strike rule.
3

danger”

exception

to

Case 3:20-cv-00058-DHB-BKE Document 9 Filed 10/02/20 Page 4 of 6
C.

The Complaint Should Also Be Dismissed Because Plaintiff Failed to
Disclose His Prior Cases and His Acquiring Three Strikes under the PLRA

The standard form on which Plaintiff submitted his claims, “Questionnaire for the
Prisoners Proceeding Pro Se Under 42 U.S.C. § 1983,” requires that prisoner plaintiffs
disclose: (1) whether they have begun other lawsuits dealing with the same or similar facts or
issues involved in the current action, (2) whether they have filed any lawsuits while
incarcerated or detained, (3) whether they have had a case dismissed based on the three strike
rule, and (4) the disposition of any such lawsuits. (Doc. no. 1, pp. 2-3.) Under the questions
concerning whether a prisoner plaintiff has brought any lawsuits otherwise relating to the same
or similar facts as the current claim or has brought any lawsuits while incarcerated or detained,
the prisoner plaintiff who has brought any such lawsuits is specifically instructed to describe
each lawsuit, including the court hearing the case, and the date of filing and disposition. (Id
at 2.) If there is more than one such lawsuit, the additional lawsuits must be described on
another piece of paper. (Id.-)
Plaintiff did not state he had any cases dismissed under the three strikes rule, which as
discussed above is untrue. (Doc. no. 1, p. 3.) Moreover, under the questions concerning filing
prior lawsuits, Plaintiff stated he only filed Cross v. GDOC Central Banking Inc, of Atl. Ga..
5:18-cv-00121-MTT-CHW (M.D. Ga. Apr. 1, 2019). He did not disclose the prior lawsuits
listed above. (Id. at 2.)
The Eleventh Circuit has approved of dismissing a case based on dishonesty in a
complaint. In Rivera, the Court of Appeals reviewed a prisoner plaintiffs filing history for
the purpose of determining whether prior cases counted as “strikes” under the PLRA and
stated:
4

Case 3:20-cv-00058-DHB-BKE Document 9 Filed 10/02/20 Page 5 of 6
The district court’s dismissal without prejudice in Parker is equally, if not more,
strike-worthy. In that case, the court found that Rivera had lied under penalty
of perjury about the existence of a prior lawsuit, Arocho. As a sanction, the
court dismissed the action without prejudice, finding that Rivera “abusefd] the
judicial process[.]”
Rivera. 144 F.3d at 731; see also Sears v. Haas. 509 F. App’x 935, 936 (11th Cir. 2013) (per
curiam) (affirming dismissal of complaint where prisoner plaintiff failed to accurately disclose
previous litigation); Redmon v. Lake Ctv. Sheriffs Office. 414 F. App’x 221, 223, 226 (11th
Cir. 2011) (per curiam) (affirming dismissal, after directing service of process, of amended
complaint raising claims that included denial of proper medical care and cruel and unusual
punishment for placement in a “restraint chair” and thirty-seven days of solitary confinement
upon discovering prisoner plaintiff failed to disclose one prior federal lawsuit); Young v. Sec’v
Fla, for Den’t of Corr.. 380 F. App’x 939, 940-41 (11th Cir. 2010) (per curiam) (affirming
dismissal of third amended complaint based on a plaintiffs failure to disclose prior cases on
the court’s complaint form); Alexander v. Salvador. No. 5:12cvl5, 2012 WL 1538368 (N.D.
Fla. Mar. 21, 2012) (dismissing case alleging deliberate indifference to serious medical needs
where plaintiff failed to disclose new case commenced in interim between filing original
complaint and second amended complaint), adopted by Alexander v. Salvador. No. 5:12cvl 5,
2012 WL 1538336 (N.D. Fla. May 2, 2012).
The practice of dismissing a case as a sanction for providing false information about
prior filing history is also well established in the Southern District of Georgia. See, e.g.. Brown
v. Wright. CV 111-044 (S.D. Ga. June 17, 2011); Hood v. Tompkins. CV 605-094 (S.D. Ga.
Oct. 31, 2005), affd, 197 F. App’x 818 (11th Cir. 2006).
Plaintiffs answers about his filing history were blatantly dishonest, and therefore, even
if Plaintiff were permitted to proceed IFP, the case should be dismissed without prejudice as a
5

Case 3:20-cv-00058-DHB-BKE Document 9 Filed 10/02/20 Page 6 of 6
sanction for the dishonesty.
III.

CONCLUSION
In sum, Plaintiff has accumulated at least three strikes against him and cannot satisfy

the dictates of the “imminent danger” exception of § 1915(g). Thus, he fails to demonstrate
that he should be excused from paying the full filing fee. Furthermore, even if Plaintiff were
allowed to proceed IFP, the case should be dismissed because he has abused the judicial
process by providing dishonest information about his filing history. Therefore, the Court
REPORTS and RECOMMENDS Plaintiffs request to proceed IFP be DENIED, (doc. no.
2), and this action be DISMISSED without prejudice. Because Plaintiff is not entitled to
proceed with this case, the Court also REPORTS and RECOMMENDS his motion for
appointment of counsel and motion to stay be DENIED AS MOOT. (Doc. nos. 3, 8.) If
Plaintiff wishes to proceed with the claims raised in this case, he should be required to initiate
a new lawsuit, which would require submission of a new complaint. Dupree v. Palmer. 284
F.3d 1234, 1236 (11th Cir. 2002).
SO REPORTED and RECOMMENDED this 2nd day of October, 2020, at Augusta,
Georgia.

BRIAN K. EPPS
UNITED STATES MAGISTRATE JUDGE
SOUTHERN DI STRICT OF GEORGIA

6

Additional material
from this filing is
available in the
Clerk's Office.

